"Review of the Administrative Cost Component of the Adjusted Community
Rate Proposals for a Southwest Medicare+Choice Organization for Contract Year
2000,"(A-09-00-00120)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Administrative Cost Component of the Adjusted Community
Rate Proposals for a Southwest Medicare+Choice Organization for Contract Year
2000," (A-09-00-00120)
July 19, 2001
Complete
Text of Report is available in PDF format (557 KB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Unlike other areas of the Medicare program, there is no statutory or regulatory
authority governing the allowability of costs in determining adjusted community
rates (ACRs) for Medicare+Choice organizations (M+CO). This review of six ACR
proposals for 2000 submitted by a Southwest M+CO was made to determine if the
administrative costs were reasonable, necessary, and allocable when compared
to Medicares general principle of paying only reasonable costs. We found,
however, that the ACRs included $35.4 million in costs that; (1) were in excess
of the amount that would have been allocated on the basis of enrollment, (2)
were not allocable to Medicare, (3) would not be allowable if existing Medicare
regulations (either for cost HMOs or in the fee-for-service arena) were applied
to M+COs, and (4) pertained to unsupported related-party transactions and other
unsupported costs. The results of this review, along with the results of similar
reviews of other M+CO organizations are being shared with the Centers for Medicare
and Medicaid Services so that appropriate legislative changes can be considered.